Audit of USAID/Nigeria’s Annual Reporting Process

7-620-05-002-P

November 18, 2004




                    Dakar, Senegal
(This page intentionally left blank)
November 18, 2004

MEMORANDUM

FOR:           USAID/Nigeria Director, Dawn Liberi

FROM:          RIG/Dakar, Lee Jewell III /s/

SUBJECT:       Audit of USAID/Nigeria’s Annual Reporting Process (Report
               No. 7-620-05-002-P)

This memorandum is our final report on the subject audit. In finalizing this
report, we considered management’s comments on our draft report and included
them in Appendix II.

This report contains two recommendations to which you concurred in your
response to the draft report. Based on appropriate action taken by the Mission,
management decisions have been reached, and all recommendations are
considered closed upon issuance of this report. No further action is required of
the Mission.

I appreciate the cooperation and courtesies extended to the members of our
audit team during this audit.




                                                                                   1
(This page intentionally left blank)




                                       2
Table of   Summary of Results                                               5
Contents
           Background                                                       5

           Audit Objective                                                  6

           Audit Findings

                   Has USAID/Nigeria complied with USAID guidelines
                   in meeting annual reporting requirements specified in
                   the Automated Directives System (ADS)?                   6

                         Verifying and Cross-Checking
                         Data Would Improve Accuracy                        9

                         Strategic Objective Narratives Need
                         To Include All Required Information               12

           Evaluation of Management Comments                               13

           Appendix I – Scope and Methodology                              15

           Appendix II – Management Comments                               17




                                                                                3
(This page intentionally left blank)




                                       4
Summary of   The objective of this audit was to determine if USAID/Nigeria complied with
Results      USAID guidelines in meeting the annual reporting requirements specified in
             the Automated Directives System. (See page 6.)

             Essentially, the fiscal year 2004 Annual Report prepared by USAID/Nigeria
             followed Automated Directives Systems and Bureau for Policy and Program
             Coordination guidance. The program narrative summary was detailed and
             informative and included all required information. The Mission conducted
             Data Quality Assessments as required with one minor exception. In addition,
             the information was consistent throughout the various sections of the report,
             and Strategic Objectives (SOs) were linked to appropriate performance goals.
             (See pages 7 to 8.)

             However, in verifying 28 indicators and other results for accuracy, we found 7
             material errors caused by a lack of review and cross-checking of data to source
             documents. Without such procedures in place, the Mission cannot be assured
             that correct information has been reported to USAID/Washington. We
             recommend that procedures be established requiring each SO team to cross-
             check and verify reported data with source documents. (See pages 9 to 11.)

             Additionally, both the Democracy and Governance SO team and the Education
             SO team did not include required information in their narratives addressing
             targets not met. This information was inadvertently omitted during the review
             process of the narratives by one team, and the other team was not aware of the
             reporting requirement. Without the required information, Annual Report users
             cannot be assured that the Mission has taken actions to address the situations.
             We recommend that USAID/Nigeria establish procedures to assign
             responsibility for verifying that each SO team has included all required
             information in the narratives of the Annual Report. (See pages 12 to 13.)




Background   Since 2001, each USAID Mission has been required to submit an Annual
             Report to the responsible bureau at USAID/Washington.1 This report is the
             Agency’s principal tool for assessing program performance on an annual basis
             and for communicating performance information to higher management levels
             and external audiences such as Congress and the Office of Management and
             Budget. To ensure consistency in reporting, each Mission prepares its report
             using a formatted template. Automated Directives System 203.3.8 contains
             policies related to preparing the Annual Report, and the Bureau for Policy and
             Program Coordination provides additional guidance, including detailed

             1
              Prior to 2001, Missions reported their results through the Results Review and Resources
             Request (R4).

                                                                                                        5
                  instructions for completing each section of the report and a sample Annual
                  Report as an example.

                  USAID/Nigeria submitted its fiscal year (FY) 2004 Annual Report to the
                  Africa Bureau as required. In the report, USAID/Nigeria provided a narrative
                  accounting of performance results for FY 2003 for four strategic objectives and
                  one special objective:

                     •   Strategic Objective 6: Transition to Democratic Civilian Governance
                         Sustained
                     •   Strategic Objective 7:       Strengthened Institutional Capacity for
                         Economic Reform and Enhance Capacity to Revive Agricultural
                         Growth
                     •   Strategic Objective 8: Develop the Foundation for Education Reform
                     •   Strategic Objective 9: Increased Use of Family Planning/Maternal and
                         Child Health/HIV/AIDS Services and Preventive Measures within a
                         Supportive Policy Environment
                     •   Special Objective 10: Improved Management of Critical Elements of
                         the Infrastructure and Energy Sector.

                  Each strategic objective section of the Annual Report also included the
                  mandatory strategic objective indicator table. The table included target and
                  actual results over the past several years as compared to the base year for
                  selected strategic objective-level indicators. USAID/Nigeria provided results
                  information in these tables for five Democracy and Governance program
                  indicators, two Economic Growth program indicators, three Education program
                  indicators, and three Health program indicators. The Special Objective section
                  did not include an indicator table.



Audit Objective   In accordance with its fiscal year 2004 audit plan, the Regional Inspector
                  General/Dakar performed this audit to answer the following audit objective:

                  Has USAID/Nigeria complied with USAID guidelines in meeting annual
                  reporting requirements specified in the Automated Directives System
                  (ADS)?

                  Appendix I contains a complete discussion of the scope and methodology of the
                  audit.




                                                                                               6
Audit Findings   USAID/Nigeria followed guidance in preparing its Fiscal Year (FY) 2004
                 Annual Report as it relates to formatting and the required level of certain
                 discussions of the program results and challenges faced by the Mission during
                 the year. The Mission also conducted data quality assessments (DQAs) as
                 required by the Automated Directives Systems (ADS). In addition, the
                 reported information and results in the various sections of the Annual Report
                 were consistent, and the Strategic Objective (SO) narratives were linked to
                 appropriate goals. However, the Mission did not comply with the annual
                 reporting requirements relating to reporting accurate information and including
                 specific SO narrative information.

                 Essentially, the FY 2004 Annual Report prepared by USAID/Nigeria followed
                 ADS and Bureau for Policy and Program Coordination (PPC) guidance. For
                 example, ADS 203.3.8.7 and ADS 204.5.3 as well as PPC guidance discuss
                 environmental compliance and the inclusion of an environmental section in the
                 Annual Report, which USAID/Nigeria included in its report. This section is
                 composed of a list of activities that might need a new or amended
                 environmental assessment or examination. In addition, the section must state
                 whether ongoing SOs and related activities are in compliance with their initial
                 examination or assessment.

                 Also as required, the program narrative complied with PPC guidance by
                 including the necessary sections. PPC guidance requires that the program
                 narrative discuss various topics, including the following:

                    •   Country setting
                    •   Beneficiaries of USAID resources
                    •   Challenges of the Mission
                    •   Key achievements
                    •   Conflict or Violence in the country
                    •   Gender implications
                    •   Trade capacity-building programs

                 USAID/Nigeria’s Annual Report sufficiently addressed all of these topics in
                 detailed narrative discussions.

                 Additionally, the SO teams met the annual reporting requirements related to
                 conducting DQAs for 12 of the 13 indicators; the remaining indicator had
                 DQAs performed for data from two of the three implementing partners. The
                 purpose of a DQA is to ensure that the Operating Unit or the SO team is aware
                 of the strengths and weaknesses of the data. DQAs look at the data collection
                 process being implemented by the source collecting the data, which is different
                 from cross-checking data. For example, the Health SO team used a Data
                 Quality Assessment Checklist for each required indicator to meet ADS

                                                                                              7
requirements. The checklist included analysis of the validity2 of the data by
looking at possible measurement error, transcription error, and the
representativeness of the data. In addition, the reliability3 of the data, the
timeliness, the precision4, and the integrity5 of the data are all examined using
the checklist. The Health team performed the DQAs in cooperation with the
implementing partners. The Democracy and Governance team used another
method to meet the DQA requirement. The team contracted with a private
consultancy group to conduct, in 2001, an assessment of all the indicators to be
used to monitor performance toward the Mission’s SO, “Transition to
Democratic Civilian Governance Sustained.” For each indicator, the DQA also
documented critical factors such as:

    •   the data source and method of acquisition by USAID,
    •   validity of the data,
    •   reliability of the data,
    •   timelines of the data,
    •   precision of the data, and
    •   whether safeguards were in place to ensure the integrity of the data.

Also as part of the audit, we reviewed the Annual Report for consistency across
the various sections. The information reported in the cover memo, the
program, SO, and resource request narratives and the performance results were
consistently reported within the Annual Report. For example, the results
reported in the cover memo for the amount of private sector investment in
telecommunications was consistent with the information reported in the
Economic Growth SO narrative.

Missions are also required to link each SO to one of the performance goals in
the new joint Department of State-USAID Strategic Plan. USAID/Nigeria
linked each SO to appropriate performance goals, which were included in the
Annual Report. For instance, the Economic Growth SO was appropriately
linked to the performance goal of “Institutions, laws, and policies foster private
sector led growth, macroeconomic stability, and poverty reduction.”

Nevertheless, as detailed below, USAID/Nigeria did not fully comply with
ADS and PPC Annual Reporting guidance in two areas: reporting accuracy and
specific SO narrative information.


2
  Valid data should clearly and adequately represent the intended result.
3
  Reliable data should reflect stable and consistent data collection processes and analysis
methods over time.
4
  Data should be sufficiently precise to present a fair picture of performance and enable
management decision-making at the appropriate levels.
5
  Data that are collected, analyzed, and reported should have established mechanisms in place
to reduce the possibility that they are intentionally manipulated for political or personal
reasons.

                                                                                                8
Verifying and Cross-Checking
Data Would Improve Accuracy

    Summary: In testing the accuracy of 28 indicators and other
    results, we found 7 material errors and other omissions due to a
    lack of review and cross-checking of data to source documents and
    mathematical calculations. Without such procedures in place as
    stated in TIPS No. 12, USAID/Nigeria cannot be fully assured that
    correct information has been reported to USAID/Washington.

To test the accuracy of 28 indicators and other results, results contained in the
Annual Report were compared with source documentation provided by the SO
and Special Objective (SpO) teams. Of these, 13 were indicators included in
the strategic objective indicator tables as these represent the key measures for
each program. We also judgmentally selected 15 other results reported in the
narrative sections. These 28 indicators and other results were comprised of six
Democracy and Governance results, six Economic Growth results, seven
Education results, six Health results, and three Infrastructure and Energy
results.

Seven material errors exist – equal to 25 percent of selected results.6 In
addition to the material errors, other omissions were noted in the Annual
Report.

Democracy and Governance – Of the six results selected for testing from the
Democracy and Governance section of the Annual Report, one material
discrepancy was found. The figure reported for the indicator “percentage of
judiciary requested budget approved (state level)” was 75 percent. However,
the source documentation provided by the SO team showed 100 percent.

In addition to the one material discrepancy, the date for a DQA of another
indicator in the indicator table was omitted. The Mission had, in fact,
performed a DQA as required.

Economic Growth – Of the six results selected for testing, three material
discrepancies were found.

First, the Annual Report showed 49 “additional fertilizer outlets” in the
indicator table for FY 2003, but source documents showed the number of
additional outlets as 25 for this same time period. In fact, further review of
supporting documentation revealed that the 49 outlets reported for FY 2003 was
actually the cumulative figure of additional fertilizer outlets for FY 2002 and
FY 2003.


6
    In assessing the accuracy of data, a threshold of five percent was used for materiality.

                                                                                               9
Second, the figure reported for the indicator “private sector market share of
fertilizer sales” was 78 percent; however, source documentation showed 65,526
tons as being sold, which represented 73 percent.

Third, revenue gains from using an improved variety of cowpea were reported
as $600 per hectare for 600 farmers in each of four targeted zones: Kano,
Kaduna, Jigawa, and the Federal Capital Territory.         Yet, supporting
documentation showed revenue gains of $600 for 74 women farmers in Kano
only. The documentation provided did not support revenues gains of $600 in
the remaining three territories.

Education – There were no material discrepancies noted in the seven selected
results reported in the Education section of the Annual Report. But an omission
of the date for a DQA of one indicator in the indicator table was noted. The
Mission had, in fact, performed a DQA as required. In addition, the indicator
table did not include FY 2002 actual and target figures for the “number of
interactive radio instruction lessons produced” indicator.

Health – Two material discrepancies were found in the six Health program
results reviewed. The figure reported for “sales of pre-packaged anti-malarial
drugs” was 38,000 for 2003. Based on supporting documentation provided by
the Mission, the actual sales for 2003 were 73,590. The Program Manager
stated that the reported results reflected only the 4th quarter sales. The Annual
Report narrative states that nearly 60,000 polio vaccinators were trained, and
35 million infants and young children were immunized with the polio vaccine.
Supporting documentation provided, however, showed 48,271 vaccinators
trained and 33.3 million people immunized.

In addition to the two errors noted above, another error found in the indicator
tables relates to “number of condoms sold.” The FY 2003 target for condoms
sold was reported in the FY 2004 Annual Report as 120 million, significantly
lower than the 152.2 million target reported in the previous year’s Annual
Report.

Also, the FY 2004 Annual Report showed a 1999 baseline figure for condoms
sold of 58 million, which was incorrect. RIG/Dakar noted this error during an
FY 2002 audit of the Mission’s monitoring of the performance of its HIV/AIDS
program.7 The Mission agreed to RIG/Dakar’s recommendation to report the
correct figure of 51 million as the FY 1999 figure in future Annual Reports and
other special reports. Although RIG/Dakar policy is to re-open previous
recommendations when non-compliance is found, in this case the problem will
be addressed by Recommendation No. 1, so RIG/Dakar will not reopen the
recommendation from the FY 2002 audit.


7
 Audit of USAID/Nigeria’s Monitoring of the Performance of its HIV/AIDS Program, July 23,
2002 (Report No. 7-620-02-004-P)

                                                                                       10
Infrastructure and Energy – Of the three results tested for accuracy from the
Infrastructure and Energy narrative, one reported result had a material
discrepancy. The figure reported for Nigerians who received training on
passenger security in 2003 was 160. The Mission originally offered
documentation that they believed supported this figure of 160 participants.
However, the documentation actually showed that 21 people – not 160 –
received the training.

These errors and omissions occurred because USAID/Nigeria had not
developed procedures to ensure that data was reviewed or cross-checked as part
of the reporting process. TIPS Number 12, which summarizes the key
references on performance measurement quality found in ADS, indicates that
while some errors in collecting data that focus on social and economic change
are to be expected, transcription errors and other discrepancies can be easily
avoided by careful cross-checking of the data to the source document. To
further ensure accuracy of data, it would be prudent to re-verify mathematical
calculations used in reporting program results.

Without procedures in place to ensure such cross-checking and re-verification
of transcribed data and key mathematical calculations to source documentation,
USAID/Nigeria cannot ensure that the data reported to USAID/Washington is
accurate and error-free. To address this weakness, we make the following
recommendation.

       Recommendation         No.  1:    We    recommend      that
       USAID/Nigeria develop specific procedures for each
       strategic objective team to cross-check and verify reported
       data with source documents and document this verification
       in the activity files.




                                                                           11
Strategic Objective Narratives Need
To Include All Required Information

    Summary: USAID/Nigeria’s FY 2004 Annual Report did not
    include a discussion of how the Mission planned to address
    shortfalls in meeting targets for two SOs as required by ADS and
    PPC guidance. This was due to the information being inadvertently
    omitted during the process of revising draft narratives by one SO
    team and the lack of awareness of the reporting requirement by
    another SO team. If the required information is not included in the
    narratives, Annual Report users will not be assured that the
    Mission is taking steps to address the situation.

The Democracy and Governance SO team and the Education SO team did not
meet all of the targets for the reported indicators in the tables of the FY 2004
Annual Report. The Democracy and Governance team did not meet three of its
five reported indicators, while the Education team did not meet two of its three
reported indicators. For example, the Democracy and Governance team had a
target of 65 for the number of key bills passed by National and targeted State
Assemblies, but the actual number of bills passed for the year was 61. Neither
of the two SO narratives included a discussion of how the teams would address
these shortfalls.

In these cases, USAID/Nigeria did not fully comply with ADS and PPC Annual
Reporting guidance regarding information included in the SO narratives. ADS
203.3.8.4 states that for targets not met, the Operating Unit must explain why
the shortfall occurred. PPC Annual Reporting guidance requires that SOs
which did not meet its targets in the indicator tables describe the management
and/or budgetary steps they are taking to address this situation.

The Democracy and Governance Team Leader stated that the omission of this
information in the narratives resulted from the information being inadvertently
left out during the process of reviewing and revising the draft versions of the
narratives. The auditors were not able to verify this information. In the case of
the Education team, the omission was due to the team being unaware of the
reporting requirement. In both of these cases, if procedures had been in place
to verify that all required data was included in the narratives, this problem
could have been avoided. When required information is not included in the
narratives, Annual Report users will not be assured that the Mission is taking
steps to address the situation.          Therefore, we make the following
recommendation.

       Recommendation        No.     2:    We     recommend      that
       USAID/Nigeria develop specific procedures that include
       assigning responsibility for verifying on an annual basis that


                                                                              12
                       each strategic objective team has included required
                       information in the narratives of the Annual Report.




Evaluation of   USAID/Nigeria concurred with all of the findings and recommendations in the
                draft audit report. Based on appropriate action taken by the Mission, all
Management
                recommendations are considered closed upon the issuance of the final report.
Comments        The attachment to management comments is not included in this audit report.

                Recommendation No. 1 recommends that USAID/Nigeria develop specific
                procedures for each strategic objective team to cross-check and verify reported
                data with source documents and document this verification in the activity files.
                The Mission concurred with this recommendation and has taken steps to
                address it. The Mission created Mission Order 200-10 Procedures for
                Preparation of Mission Annual Report, which states that each team will
                designate an individual to verify and cross check the accuracy of the
                information included in the Annual Report.

                Recommendation No. 2 recommends that USAID/Nigeria develop specific
                procedures that include assigning responsibility for verifying on an annual basis
                that each strategic objective team has included required information in the
                narratives of the Annual Report.         The Mission concurred with this
                recommendation and has taken steps to address it. Mission Order 200-10
                Procedures for Preparation of Mission Annual Report also states that the
                Senior Strategic Analysis Advisor will be reviewing narratives to verify that all
                required information is included.




                                                                                              13
(This page intentionally left blank)




                                       14
                                                                                    Appendix I



Scope and     Scope
Methodology
              The Regional Inspector General/Dakar conducted this audit in accordance with
              generally accepted government auditing standards. The purpose of the audit was
              to determine if USAID/Nigeria complied with Automated Directives System
              (ADS) requirements and other guidelines in preparing its Annual Report. The
              audit was conducted at USAID/Nigeria in Abuja from August 30 to September
              15, 2004.

              We assessed the management controls of the Mission’s annual reporting process,
              which included USAID guidance contained in the ADS, memoranda from the
              Bureau for Policy and Program Coordination (PPC), and other internal policies
              and procedures at both the USAID and Mission level. The audit scope focused on
              examining the procedures used by the Mission to prepare its fiscal year 2004
              Annual Report, as well as on verifying the accuracy of the reported data. This
              included reviewing reports prepared by the Mission and partners, and reviewing
              and tracing selected results back to a variety of source documents.

              However, for the second problem area in the Audit Findings section of this report,
              we were not able to verify the Democracy and Governance Strategic Objective
              (SO) Team Leader’s statement regarding why all required information was not
              included in the SO narrative.

              Methodology

              To determine the extent to which the Mission complied with ADS and PPC
              guidance, we selected 28 indicators and other results reported from the four SO
              sections and one Special Objective section of the Annual Report. Of these, 13
              were all of the indicators included in the SO indicator tables as these represent
              the key measures for each program. We also judgmentally selected 15 other
              results reported in the narrative sections we thought to be important measures
              for each program. Because the sample was not chosen statistically, we are not
              projecting our findings onto the entire population of indicators.

              For the selected indicators and results, we performed substantive testing to
              ensure that the Mission complied with specific reporting requirements and that
              the underlying data included in the Annual Report was obtained and reported in
              accordance with Agency requirements. This testing included (1) determining if
              the teams maintained sufficient documentation to support the 28 indicators and
              results cited in the Annual Report; (2) verifying the accuracy of the 28
              indicators and other results back to source documents; and (3) reviewing
              evidence of data quality assessments having been conducted as cited in the


                                                                                             15
strategic objective indicator table. Our verification included examining source
documents and electronic and manual records.

We also interviewed responsible personnel on each SO and Special Objective
team at the USAID Mission in Nigeria, as well as in the Program Office,
regarding the process for preparing the Annual Report and the data sources for
the various reported indicators.

A threshold of five percent was used for materiality in assessing the accuracy
of data.




                                                                            16
                                                                                   Appendix II


Management
Comments




             MEMORANDUM

             DATE:          November 8, 2004

             FOR:           Lee Jewell III, RIG/Dakar

             FROM:          Dawn Liberi, USAID/Nigeria Mission Director /s/

             SUBJECT:       Mission Comments on Draft Report on Audit of
                            USAID/Nigeria’s Annual Reporting Process

             I am pleased to have the opportunity to provide comments on the Regional
             Inspector General’s recent audit of USAID/Nigeria’s annual reporting process.
             We would like to commend the RIG staff for their thorough assessment of our
             procedures and the useful observations they have made. USAID is fully
             committed to the systematic and comprehensive monitoring and evaluation of all
             of our activities, and the accurate reporting of program results. We welcome the
             opportunity to learn from the audit report, and take measures to further refine our
             annual reporting process.

             It should be noted that performance management is a top priority of the Mission
             in the implementation of the Country Strategic Plan for 2004 – 2009. We have
             developed a Mission-wide performance management plan that was submitted to
             USAID/Washington on September 30, 2004. To ensure that all of our
             implementing partners have proper systems in place to monitor their activities and
             provide the Mission with data that meets agency requirements, we are putting a
             Mission-wide contract in place to provide oversight and technical assistance. In
             addition, we are in the process of recruiting a Performance Monitoring Specialist
             to assist USAID staff and implementing partners to develop, refine and
             implement results monitoring systems in accordance with the ADS.

             It is testimony to the importance that the Mission has placed on performance
             management that RIG auditors found that for the most part, the Mission had
             complied with Agency guidance in the preparation of the Annual Report. We
             take particular pride in knowing that data quality assessments were found to
             have been properly conducted. As the auditors pointed out to us, this is a

                                                                                             17
challenging and laborious exercise that some other Missions have had difficulty
carrying out properly. This accomplishment is even more noteworthy when
one considers the environment in which USAID/Nigeria is operating. As in
many developing countries, it is extremely hard to collect good quality data.
The capacity of the Nigerian Government and other organizations to gather and
report information is limited due to poor infrastructure and a lack of training.

Recommendation No. 1

We agree with the recommendation that USAID/Nigeria develop specific
procedures for each strategic objective team to cross-check and verify reported
data with source documents and document this verification in the activity files.
To this end, a draft Mission Order has been developed, attached to this memo
as Annex I. We are confident that the procedures outlined in the Mission Order
will reduce the incidence of transcription errors and ensure that the content of
the Annual Report matches the information contained in source documents.

With regard to incorrect reporting of the FY 1999 baseline figure for condom
sales, the correct figure of 51 million has been inserted into the performance
data table and will appear in the FY 2005 annual report which we have begun to
prepare.

Recommendation No. 2

We agree with the recommendation that USAID/Nigeria develop specific
procedures that include assigning responsibility for verifying on an annual basis
that each strategic objective team has included required information in the
narratives of the Annual Report. Such procedures have also been outlined in
our newly developed Mission Order on procedures for preparation of the
Mission Annual Report (See Annex 1). The Senior Strategic Analysis Advisor
will be officially assigned responsibility for checking the contents of the report
and verifying that each SO team has included all required information in the
narratives of the Annual Report. After completing the review of the annual
report, the Advisor will prepare a transmittal memo to the Mission Director
confirming that the report adheres to all of the requirements described in the
guidance.

The Mission welcomes any comments RIG/DAKAR may have on our draft
Mission Order before we finalize and issue it. USAID/Nigeria believes that the
issuance of the Mission Order addresses the two recommendations indicated in
the audit report, and trust that will close both audit recommendations.




                                                                               18
